                   U.S. Department of Energy
                   Office of Inspector General
                   Office of Audits and Inspections




AUDIT REPORT
Office of Science's Management of Research
Misconduct Allegations




 OAS-M-14-09                          August 2014
                                  Department of Energy
                                    Washington, DC 20585

                                         August 12, 2014

MEMORANDUM FOR THE ACTING DIRECTOR, OFFICE OF SCIENCE


FROM:                    George W. Collard
                         Assistant Inspector General
                           for Audits
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Office of Science's Management
                         of Research Misconduct Allegations"

BACKGROUND

Science and technology are the foundations of Department of Energy (Department) activities. In
response to a Government-wide mandated Federal policy to protect the integrity of Federally-
funded research, and preserve public trust and confidence, the Department in June 2005,
published its interim final Policy on Research Misconduct in the Federal Register. To implement
the policy, the Department established procedures applicable to research conducted under a
contract or financial assistance agreement. Such procedures are detailed in the Department's
Acquisition Regulation (DEAR) 952.235-71, Research Misconduct, and in the Code of Federal
Regulations (CFR) 10 CFR 600.31, Research Misconduct, and 10 CFR 733, Allegations of
Research Misconduct.

Research misconduct is the fabrication, falsification or plagiarism in proposing, performing or
reviewing research, or in reporting research results. There are three basic steps to processing an
allegation — an inquiry, an investigation, and adjudication. The Department assigns primary
responsibility for a research misconduct inquiry and investigation to the entity conducting the
research, while the Department provides oversight. Entities that receive an allegation are
required to make various notifications to the Office of Inspector General (OIG) and other
appropriate officials as they work to address the issues involved.

The Department's Office of Science (Science) is the lead Federal agency supporting fundamental
scientific research for energy and the Nation's largest supporter of basic research in the physical
sciences. Science supports National Laboratories and approximately 25,000 scientists and
engineers at approximately 300 U.S. academic institutions. In Fiscal Year (FY) 2013, Science
requested about $2.4 billion for research. Between FYs 2009 and 2013, Science and the National
Laboratories it manages received just over 30 allegations of research misconduct. Due to the
importance of scientific research integrity, we initiated this audit to determine whether Science
properly managed allegations of research misconduct.

RESULTS OF AUDIT

We found that Science and the National Laboratories included in our review established
organizational and procedural mechanisms for receiving and reviewing research misconduct
allegations. Although we did not review the actual allegations, we did review the actions taken
by Science and the National Laboratories on the allegations they received. In particular, we
reviewed actions taken on 21 research misconduct allegations received by Science, the Integrated
Support Center-Chicago Office, the Argonne National Laboratory (ANL), the Lawrence
Berkeley National Laboratory (LBNL), and the Oak Ridge National Laboratory (ORNL). Based
on these reviews, nothing came to our attention to indicate that allegations were not
appropriately addressed at the sites included in our review. While each allegation appeared to be
properly addressed, we did identify instances where notifications were not made or local
laboratory procedures were not followed.

Notifications

Department programs, laboratories, and financial assistance recipients did not always make
notifications of allegations as required by Department regulations. For example, we noted one
instance where Science sent an allegation of plagiarism directly to ANL without notifying the
OIG. Federal regulations (10 CFR 733) require such notification to allow the OIG to determine
whether it needed to exercise its statutory responsibility to investigate possible fraud. The
Science official that received the allegation and sent it to ANL stated that she was unaware of the
requirement to consult with the OIG.

ANL acted on the allegation and initiated an inquiry that led to a formal investigation. However,
upon initiation of the formal investigation, ANL officials neglected to notify the Contracting
Officer as required by DEAR clause 952.235-71. The Contracting Officer is responsible for
determining that appropriate actions were taken. ANL officials stated they verbally disclosed the
allegation to the Argonne Site Office Deputy Manager but not the Contracting Officer. ANL
officials acknowledged that they should have informed the Contracting Officer directly. The
Contracting Officer did not learn of the allegation until receiving the results of the completed
investigation which substantiated that misconduct had occurred, resulting in the dismissal of the
researcher.

In another instance, LBNL had not notified the Contracting Officer about an investigation of
research misconduct related to plagiarism concerning work not funded by the Department.
LBNL officials confirmed the misconduct and discussed the results with the funding agency
sponsoring the research; however, LBNL did not forward the evidentiary record or coordinate
corrective actions with the Department's Contracting Officer as required. This occurred because
LBNL's policy only required disclosure to the funding agency. Such policy contradicted
requirements in LBNL's management and operating contract requiring it to follow Department
regulations to notify the Contracting Officer when all investigations were started and completed.
LBNL pointed out that the Contracting Officer had accepted its policy as appropriate
implementation of the requirements. However, the Contracting Officer agreed that such
acceptance was an oversight and would direct LBNL to align its policy to the contract clause. As
of June 2014, LBNL, with Contracting Officer concurrence and participation, was in the final
stages of revising the research misconduct policy to incorporate the necessary elements.

Finally, we noted one instance in which a financial assistance recipient neglected to notify the
Contracting Officer of an investigation it conducted, as required by 10 CFR 600.31. The



                                                 2
investigation involved an allegation that a researcher fabricated data in research papers the
researcher co-authored. Science did not learn of the investigation until it contacted the recipient
concerning an allegation received by the OIG. Furthermore, the recipient did not forward the
evidentiary record, the investigation report and recommendations to the Contracting Officer after
the investigation was completed as required. The recipient's investigation into the allegation
found no misconduct. According to Science's review of the circumstances, the recipient failed to
adhere to the research misconduct requirements to notify the Department regarding the
investigation; however, the recipient followed its own allegation policies and procedures.
Further, a Science official stated that the recipient should be reminded to inform the Contracting
Officer of investigations into research misconduct.

Because the required notifications were not made, the OIG and Contracting Officer were unable
to execute their respective investigative and contract administrative responsibilities. From our
perspective, such notifications are important in that the OIG can pursue criminal sanctions
depending on the circumstances of the case.

Internal Procedures

Our review also found that ORNL and LBNL had not always followed local laboratory research
misconduct procedures when processing allegations. Specifically:

    •   Allegation reviews were not always completed within recommended timeframes at both
        of the National Laboratories. ORNL's procedures state that the initial assessment should
        be concluded within a week, while an inquiry should be concluded within 30 days. We
        reviewed eight ORNL allegations and found that ORNL officials did not process five
        allegations within one or both of these timeframes. Recognizing that the timeframes are
        not absolute requirements, ORNL officials cited that three of the delays were for reasons
        outside of their control, such as personnel on travel; however, they could not provide
        explanations for two of the delays. To their credit, status updates were documented for
        some of the allegations. We also found that one of the allegation assessments at LBNL
        took 55 days, which was beyond the week timeframe shown in LBNL's policy. LBNL's
        official could not explain why the procedures were not always followed and
        documented.

    •   Charge letters to individuals conducting the inquiries that explained the purpose and
        scope of the inquiry were not included in two of the eight files at ORNL, and we could
        not locate documents notifying the individuals against which the allegations were made
        of the outcome of three inquiries, as required.

    •   ORNL members of the inquiry teams did not sign Conflict of Interest (COI) statements
        for three of the allegations we reviewed. We also found that documentation for the
        Office of General Counsel's review of the COI statements was not completed. ORNL's
        procedures require all potential members of an inquiry team to sign COI statements
        which are then to be reviewed by ORNL's Office of General Counsel. These statements
        are to ensure that the individuals serving on the inquiry team have no unresolved
        conflicts of interest. We consider signed statements to be a best practice that was not


                                                 3
        found at the other laboratories. Throughout the course of the audit, ORNL officials
        stated the reason why we could not confirm these procedures were followed was likely
        because they were done verbally or more informally in the past and, as a result, the files
        lacked documentation of all review activities that occurred. In response to our findings,
        ORNL officials assigned a specific individual to ensure all required documentation and
        evidence is created and retained in the files.

    •   LBNL did not document its determination that no additional records were required to be
        sequestered for one allegation that proceeded from inquiry to investigation. LBNL
        policies address preservation of the documentation necessary to review the allegation at
        both the inquiry and investigation stages.

The proper handling of research misconduct allegations is critical to preserving and promoting
scientific integrity. Both Federal and Department policies place primary responsibility on the
research organization for the inquiry, investigation and adjudication of misconduct allegations.
Given such reliance, policies and procedures need to be established and followed. Acting
promptly on an allegation is also key to capturing facts while still fresh and protecting vital
documentation that may be lost over time. Additionally, open communication is integral to
protecting positions and reputations. Notifying the respondents of the proceedings, for example,
allows their comments to be part of the inquiry record.

Impact and Path Forward

The failure to fully implement research misconduct policies and procedures are the result of an
apparent lack of understanding on the part of laboratories and financial assistance recipients.
Without adequate knowledge and understanding of the research misconduct policies and
procedures, Science cannot be assured that misconduct cases are handled appropriately, and
thereby opens itself up to negative scrutiny and potential harm to its research reputation.

RECOMMENDATION

To ensure that research misconduct allegations are handled appropriately, in addition to actions
already being taken, we recommend that Science provide additional education and guidance on
the procedures and responsibilities for conducting research misconduct allegation reviews to
Department officials, laboratories, and financial assistance recipients.

MANAGEMENT REACTION

Management concurred with the findings and the recommendation. Management agreed to
initiate active outreach to Science's program, contracting, and field office personnel as well as to
the National Laboratories and institutions receiving Science funding to raise awareness of the
Department's research misconduct policies and procedures. Science will also make Federal and
Department policies and procedures available through its website.

Management's formal comments are included in Attachment 3.




                                                 4
AUDITOR COMMENTS

Management's corrective actions are responsive to our recommendation.

Attachments

cc: Deputy Secretary
    Deputy Under Secretary for Science and Energy
    Chief of Staff




                                             5
                                                                                    Attachment 1


                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether the Office of Science (Science) properly
managed allegations of research misconduct.

SCOPE

We conducted the audit from October 2013 to August 2014, at Science Headquarters in the
Washington, DC, area. We also visited Lawrence Berkeley National Laboratory (LBNL) in
Berkeley, California; Argonne National Laboratory in Argonne, Illinois; the Integrated Support
Center-Chicago Office (Chicago Office) in Argonne, Illinois; and the Oak Ridge National
Laboratory in Oak Ridge, Tennessee. The scope of the audit covered research misconduct
allegations from Fiscal Years 2009 through 2013. We also reviewed one additional research
misconduct allegation at LBNL that occurred during Fiscal Year 2008. This audit was
conducted under Office of Inspector General Project Number A13CH061.

METHODOLOGY

To accomplish the audit objective, we:

    •   Researched applicable Federal and Department of Energy regulations and guidance
        related to research misconduct.

    •   Reviewed prior Office of Inspector General reports related to the audit objective.

    •   Requested that Science solicit its field offices and National Laboratories concerning the
        number of research misconduct allegations received.

    •   Judgmentally selected a cross section of entities within Science. We selected all
        research misconduct allegations from Science Headquarters due to the involvement in
        the process and the number of allegations forwarded to them by the Office of Inspector
        General Hotline. We judgmentally sampled allegations at 3 of 10 National Laboratories
        based on our review of the allegations and concerns raised in the past. We also selected
        the Chicago Office because of its purview over financial assistance recipients to Science.
        Because a judgmental sample of sites was used, results are limited to the sites selected.

    •   Conducted site visits and interviewed personnel from Science Headquarters, the Chicago
        Office, and the National Laboratories in our sample.

    •   Confirmed the number of allegations reported by the sites we selected to sample.

    •   Reviewed and evaluated research misconduct policies and procedures at the National
        Laboratories in our sample.



                                                6
                                                                                    Attachment 1


    •   Evaluated all research misconduct allegation files at each of the selected sites comparing
        the documentation to the requirements and policies.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. The audit included test of controls
and compliance with laws and regulations to the extent necessary to satisfy the audit objective.
In particular, we assessed the implementation of the GPRA Modernization Act of 2010 as
necessary to accomplish the objective, and found that there were no established performance
measures related to research misconduct. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. We did not rely on computer-processed data to satisfy our audit objective.

Management waived an exit conference.




                                                7
                                                                                 Attachment 2


                                    PRIOR REPORT

•   Inspection Report on Inspection on the Review of Scientific Integrity Issues at Lawrence
    Berkeley National Laboratory (DOE/IG-0478, July 2000). The inspection report noted
    that a research scientist at Lawrence Berkeley National Laboratory had intentionally
    falsified and misrepresented research data to the level of scientific misconduct. At the
    time, the Department of Energy did not have a policy for addressing allegations of
    scientific misconduct; and accordingly, the responsible officials apparently believed that
    they had no obligation to take corrective action in response to the research misconduct.




                                             8
                      Attachment 3


MANAGEMENT COMMENTS




         9
                                         FEEDBACK

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
